                             AGENCY FOR                DEVELOPMENT
                               OF     REGIONAL INSPECTOR
         I
  CAIRO, EGYPT                                                    Report No. 6-388-99-001-P
                                                                  October 8, 1998




MEMORANDUM


TO   l
              DIRECTOR,                          Gordon West

FROM:         RIG/A/Cairo, Lou Mundy

SUBJECT:      Audit of the Quality of Results Reported                         Results Review
              and Resource Request (R4) Report Prepared in 1997

This memorandum is our report on the subject audit. We have considered your comments on the
draft report and have made changes as deemed appropriate. Your comments are included in their
entirety in Appendix II, and our evaluation of these comments is contained on pages 7 and 8.

This report contains two recommendations.       In responding to those recommendations,
USAID/Bangladesh outlined a plan of action and stated it has already undertaken steps to
implement that plan. Based on the Mission’s plan of action, a management decision has been
reached on both Recommendation Nos. 1 and 2. USAID/Bangladesh should advise the Bureau
for Management, Office of Management Planning and Innovation, Management Innovation and
Control Division             when final action is complete and seek closure from them at that
time.

We appreciate the cooperation and assistance provided by USAID/Bangladesh to the auditors on
this assignment.



Background

Passage of the Government Performance and Results Act of 1993 (Results Act), among other
things, was intended to improve the effectiveness of federal programs and public accountability
by promoting a new focus on results. The General Accounting Office (GAO) noted that key
steps in building a successful results-oriented organization include collecting and using
performance information in the decision-making process. Congress also recognized, in the
Results Act, that agency managers need performance information to facilitate decision-making
leading to programs that meet intended goals. GAO also noted that successful implementation
of the Results Act is dependent on good information for decision-making purposes.

Since          was established in 1961, it has initiated numerous systems to report on program
results. However, none of these systems has been fully successful. Over the past several years,
the Office of Inspector General (OIG) has intermittently reported on weaknesses in
ability to measure and report reliable program performance information. Examples of these audit
reports include?

                A June 1995 report identified that            needed better direction and control
                procedures to ensure that (1) objectively verifiable and measurable indicators are
                established to measure program performance and (2) reliable and useful
                performance data are reported and documented.

                A March 1998 report on              fiscal year 1996 financial statements identified
                that 29 of 38 (76 percent) quantified results reported in the program performance
                        were either incorrect, vaguely set forth, or unsupported.

                Another audit report issued in March 1998 identified that 10 of 11 overseas
                missions reviewed had not developed or had not finalized a system of data
                collection and verification to report good performance data.

In light of the problems reported, we were concerned these conditions may be pervasive
throughout           Therefore, the OIG decided to perform a              audit to establish a
baseline for future OIG audit work, -to identify problems with current data reporting, and to
develop recommendations for improving data reporting. This audit was intended to determine
if established performance indicators were objectively verifiable and if performance results
reported by the operating units in the Results Review and Resource Requests (or          were
supported, accurate, complete, and validated. The audit of USAID/Bangladesh is one of the 18
audits being done on a                basis.

USAID/Bangladesh’s R4 for its 1996 results identifies 68 performance indicators and reports
performance results, or baseline data, for 55 indicators. According to the Mission, as of
September 30, 1997, it had obligated and expended in support of its active projects a total of
$42.4 million and $35.7 million, respectively.

Audit Objective

The Regional Inspector General/Cairo, as part of a                         audit, performed the audit to
answer the following question:



   The audit reports referred to in this paragraph are Audit Report No. l-000-95-006 dated       30,      Audit
   Report No. 0-000-98-001-F dated March 2, 1998, and Audit Report No. 9-000-98-001-P      dated  March 26, 1998.

                                                     2
       Did                     establish              indicators which were objectively
       verifiable and report results data in its Results Review and Resource Request
       prepared in 1997, which were supported, accurate, complete, and validated?

Appendix I describes the audit’s scope and methodology.


Audit Findings

Did                     Establish Performance Indicators Which Were Objectively
Verifiable and Report Results Data in its Results Review and Resource Request Prepared
in 1997, Which Were Supported, Accurate, Complete, and Validated?

USAID/Bangladesh did not always establish performance indicators which were objectively
verifiable and generally did not report results data in its Results Review and Resource Request
(R4) prepared in 1997, which were supported, accurate, complete, and validated.

Federal laws and regulations require federal agencies           develop and             internal
management control systems that (1) compare actual program results against those anticipated;
(2) provide for complete, reliable, and consistent information; and (3) ensure that performance
information is clearly documented and              the documentation is readily available for
examination.       example, Office of Management and Budget (OMB) Bulletin                Audit
Requirements for Federal Financial Statements, dated January 8, 1993, requires agencies to have
internal control systems to provide reasonable assurance that support for reported performance
results are properly recorded and accounted for to permit preparation of reliable and complete
performance information. (See Appendix IV for a further discussion of relevant laws and
regulations as well as related         policies and procedures.)

For the purpose of this audit, our definitions are as follows:

       Objectively Verifiable-The indicator is objective and the results have to be verifiable.
       This means the indicator has no ambiguity about what is being measured. That is, there
       is general agreement over interpretation of the results.        The indicator is both
       unidimensional and operationally precise. To be unidimensional means that it measures
       only one phenomenon at a time. Operational precision means no ambiguity over what
       kind of data would be collected for an indicator.

       Supported-This means that there is adequate documentation that supports the reported
       result. The support should be relevant, competent, and sufficient (as noted in the General
       Accounting Office’s Government Auditing Standards). For example, a memo of a
       telephone conversation, or “best guesses” would not be considered adequate
       documentation.
        Accurate-To be accurate means (1) being within plus or minus one percent of the actual
        documented result; and (2) being consistent with what was to be measured under the
        indicator, e.g., if the indicator was to vaccinate children under 5 years of age, then the
        result would not be consistent if the supporting documents show that the result was for
        children under 3 years of age. The result would also not be considered accurate if
        supporting documents show that the result was achieved prior to January 1, 1996.

        Complete-This means the result includes all anticipated data and is for a full year. For
        example, if 20 regions were to be measured but only 18 regions were included, the result
        would not be considered complete. Also, if the results were only for a partial year, then
        the result would not be complete.

                          refers to the source of the data and the reliability of that source. We
        consider the source reliable if it came from entities such as the World Bank, United
        Nations (UN), independent evaluators, or an independent Demographic and Health
        Survey.. If the data came from a contractor involved with the program or the host country
        government, the data would only be considered from a reliable source if               or an
        independent entity had performed an assessment of the data and/or system for generating
        the data and found the data or system to be reliable. (For the purposes of this audit, we
        are not reviewing             determination of validity of these independent sources. We
        plan to test           validation process for external information, like the UN, at a later
        time in another audit.)

As shown in Appendix III, our audit identified problems in 29 of the 30 performance indicators
tested in the R4 for fiscal year 1996 (which was prepared in 1997). A break-down and examples
of these problems are as follows:’

        Results for 13 indicators were not objectively verifiable. For example, one indicator was
        “Numbers of poor households overall producing fish and vegetables increased.” This is
        not objectively verifiable because what is meant by poor is not clear and was not
        explained in the R4 or other documentation. Also, based on the results data the Mission
        was gathering, two different phenomena were being measured-the number of households
        producing fish and the number of households producing vegetables. Therefore, the
        indicator is not unidimensional. The indicator is misleading because the reader may
        interpret the indicator as meaning the number of households producing both fish and
        vegetables.



    To avoid enumerating several problems related to a reported result e. a reported result cou be both not
    supported and not accurate), we have reported only one problem             indicator according to the following
    hierarchy: not objectively verifiable, not supported, not accurate, and not          te. We did, however, report
    results as not validated (if applicable) in addition to another problem because we believe that the requirement
   for operating units to assess the quality of data sources was a distinct function and potentially related to each
    of the type    problem included       the hierarchy.


                                                        4
       Results for 15 indicators were not adequately supported. For example, one indicator was
       the “Number of marriages registered in target communities increased.” The R4 reported
       7,800.                       officials said that this figure was based on telephone
       conversations with grantee officials.

       Results for 28 indicators were not                  For example, one indicator was
       “Vaccination Coverage for Urban Children Increased and Sustained” and the unit of
       measure was the percentage of urban children “fully vaccinated by one year.” The R4
       reported an 81 percent achievement rate. However, that rate was provided by a
       Government of Bangladesh source which was not independent, nor were the results data
       and/or the system used to generate those results assessed by the Mission or an
       independent evaluator.

The above problems existed because                      did not follow or was not successful
in following prescribed      policies and procedures for measuring and reporting on program
performance. For example, the Mission:

       Did not always ensure its indicators were objective (as prescribed by Automated
       Directives System [ADS] 200 Series             and did not always assess data quality as
       part of the process of establishing performance indicators and choosing data collection
       sources and methods, and

       Did not maintain documentation to support reported results as prescribed by Office of
       Management and Budget (OMB) Bulletin 93-06, Audit Requirements for Federal
       Financial Statements, dated January 8, 1993.

Based on our audit criteria,                     officials generally concurred with our findings
and cited additional explanations for the problems. For example, they said that they were aware
of the requirement that indicators had to be objective but believed that applying the objectivity
criterion to social science fields often requires more complex analyses as to what is being
measured and what kind of data will be collected. The officials also said that they believed that
USAID/Washington’s approval of the Mission’s indicators affirmed its judgment regarding the
appropriateness of the indicators.

In regard to supporting documentation, USAID/Bangladesh officials stated that in some cases
they relied on telephone conversations from grantees or subgrantees and did not believe it was
important to obtain supporting documentation. In other cases, the officials said that supporting



   For two of these indicators, an assessment of the grantee reporting sys    had been performed by the     and
   reported on a prior audit report (No. 5-388-97-002-P). That audit found that the grantee could not provide
   documentation to support baseline data, or documentation provided to support actual results showed that the
   actual results in the report were inaccurate. The OIG recommended that the Mission and grantee develop a
           to ensure that baseline and actual results data reported by the grantee are accurate and supporting
             ta     is maintained.
 documentation may have been available but was not retained.                               as to sources of data,
 certain Mission officials acknowledged that the reported results were primarily based on
 information provided by the Mission’s grantees and subgrantees which were not validated
 primarily because those Mission officials were unaware of the requirement to do so. However,
 Mission management indicated it is aware of these documentation requirements.

 However, by the time we completed our audit,                            had taken action, or had
 agreed to take action, to correct some of the above problems. For example, for the R4 prepared
 in 1998, USAID/Bangladesh deleted 6 of the 13 indicators identified in Appendix III as not being
 objective. USAID/Bangladesh said the indicators were deleted because the officials recognized
 that the results did not clearly and accurately show what was anticipated under the indicators.
 In addition, some of the remaining seven indicators that were not dropped in their 1998 R4 were
 made more definitive.      For example: one indicator was listed as “Number of local elites and
 opinion leaders reached by legal awareness programs in targeted communities increased.” For
 the 1997 R4, we were not able to determine objectively what was being measured. However,
 in the 1998 R4, the Mission explained the definition of a “local elite” and an “opinion leader.”
 Further, the Mission identified its targeted communities, i.e., its universe-220 unions with a
 population of 5.5 million. The actions taken on those 13 indicators were taken by the ‘Mission,
 on its own initiative, prior to this audit.

 Regarding another corrective action, Mission officials stated that, based upon the auditors’ non-
 acceptance of national service statistics generated by the Government of Bangladesh (GOB), they
 do not plan to report results in the R4 performance tables for some indicators in which data was
 derived from that source. Instead, they plan to report official results in those tables every three
 years using a widely-known and more reliable source - t h e Bangladesh Demographic Health
 Survey (BDHS). Then, since the GOB’s national health statistics have been useful at the Mission
 in determining performance “trends,” they will report those trends only in the R4 narrative and
 “comments” section of the performance results tables during the years for which there are no
BDHS statistics. This policy has been reflected already in the Mission’s 1998 R4.

Further, as to the validation of data collected, Mission officials said that they would monitor
more closely the requirement in each of its assistance acquisition awards that “the
Recipient/Contractor develop and implement a system, acceptable to USAID/Bangladesh, which
includes, but is not limited to, delineating specific procedures for testing the reliability of
performance data results....” The officials said that this would be accomplished through in-house
periodic financial systems reviews of recipients/contractors and/or annual recipient-contracted
audits. The officials also stated that they would include in their periodic site visits a mechanism
whereby they would periodically test/verify specific performance results reported by their
recipients. This added function, they said, would be documented in their field trip reports.


4
    For the 1997 R4               that we found were not objective, we reviewed the 1998 R4 only to determine if those
    indicators had been deleted       if improvement had been made to them. We did               apply the objectively
    verifiable criteria to the improved indicators and, therefore, we are not concluding whether     not           met
    that criteria.

                                                          6
  In conclusion,          guidance issued in January 1997 for preparing       states that one of its
  goals is to generate      which ensure that USAID/Washington has the information needed to
  make results-based resource allocations among operating units and report on the
  achievements. However, the problems we have discussed in this report with performance
  indicators and reporting on performance could significantly impair                            and
           management’s ability to measure progress in achieving program objectives and related
  targets, and to use performance information in budget-allocation decisions.

  Therefore,                       needs to improve its performance indicators and reporting on
  performance, and ensure that reliable and complete data is collected and maintained to accurately
  measure performance toward achieving expected results.

         Recommendation No. 1: We recommend that                                ensure its
         performance indicators in the R4 to be prepared in 1999 are objective and clearly
         defined regarding what specific results are to be measured.

         Recommendation No. 2: We recommend that                              ensure that the
         performance data identified in its R4 to be prepared in 1999 are supported, accurate,
         complete, and validated; or fully disclose in the R4 data limitations and their
         implications for assessing the measurement and achievement of performance targets
         for each performance indicator, and a time frame for resolving the problems.




  Management Comments and Our Evaluation

 Although USAID/Bangladesh disagreed in some respects with the criteria we used on this audit,
 it generally agreed that more work needs to be done to ensure that, for its 1999 R4, performance
 indicators are objective and clearly defined and that performance data are supported, accurate,
 complete, and validated. In response to the two recommendations, the Mission outlined a plan
 of action and has already undertaken steps to implement that plan. For example, the Mission
 stated that it has expanded the scope of its financial reviews it conducts on recipients to include
 a review of the recipients’ procedures for monitoring progress toward the achievement of program
objectives. In addition, it plans to revise its Statement of Work for recipient-contracted audits
 to include a requirement to test the reliability of performance data results submitted by
 recipients.

 Another example of the actions the Mission stated it has taken in response to our
 recommendations: its Population and Health team has added four new indicators against which
 it will be able to report performance using survey results from the World Health Organization,
 an entity source that, for the purpose of this audit, we consider reliable. The Mission stated that
 it would report performance data from that entity’s surveys during the years in which a
 Demographic and Health Survey is not conducted.
Based on the Mission’s plan of action, a management decision has been reached on both
recommendations.                      should advise         when final action is complete
and seek closure from them at that time.




                                           8
                                                                                          Appendix I
                                                                                          Page 1 of 2




                                     SCOPE AND
                                    METHODOLOGY




 Scope

 We audited                         internal management controls for ensuring that it reported
 performance results data that were verifiable, supported, accurate, complete, and validated in its
 Results Review and Resource Request (R4) report (see pages 3 and 4 of this report for
 definitions). We audited only the results (including baseline data) reported for 1996 in the R4
 prepared in 1997. The audit was performed in accordance with generally accepted government
 auditing standards and was conducted at                      from April 15 through May 6, 1998.

  We limited our work on the validity and reliability of data for performance indicators identified
  in the “performance data tables” in the R4 (prepared in          and the actual results for which
  such data was shown for 1996. In addition, we did not review results reported in the narrative
 portion of the R4 except to obtain, for certain sampled indicators, clarifying explanations as to
. reporting period, data completeness, and intended sources of data. Also, we did not attempt to
 determine the completeness of a reported result by additional audit steps, i.e., if the operating unit
 provided documentation to support the reported result and asserted that the result was accurate
 and complete, we examined that documentation without performing any additional audit fieldwork
 at the premises of contractors, grantees, etc.


 Methodology

This audit is part of a              audit. The Office of Inspector General’s Performance Audits
Division in Washington, D.C. is the lead office. Operating units were selected using a random
sample based on assistance from statisticians from the Department of Defense (DOD). Based on
the DOD statistical sample for this operating unit, USAID/Bangladesh, we reviewed the reliability
of performance results reported in the R4 for 30 of the 55 performance indicators for which such
performance was identified in the “performance data tables” for 1996. To accomplish the audit
objective, we reviewed USAID/Bangladesh’s R4 prepared in 1997 and supporting documents, for
the performance indicators selected, to determine if:
                                                                                     Appendix I
                                                                                     Page 2 of 2


       (a)     performance indicators are objectively verifiable;

               reported results are adequately supported;

       0C      documented results are within plus or minus 1 percent of actual;

               results data are complete; and

        e      results were validated, i.e., an assessment was performed of the data and/or system
               for generating the reported data.

Where problems were found, we reviewed to the extent practical, the causes of the problems.
This included additional interviews with Mission and     personnel, and reviews of additional
documentation at the Mission provided by Mission personnel, contractors, grantees, etc.

In answering the audit objective, our methodology was to: (1) provide a positive answer if 95
percent or more of the time appropriate criteria was met; (2) provide a qualified answer if the
criteria was met 75 to 94 percent of the time; and (3) provide a negative answer if the criteria
was met less than 75 percent     the time.

As                     had already prepared its R4 in 1998 for its 1997 performance results by
the time we performed this audit, we reviewed the 1998 R4 only for the purpose of determining.
improvements and/or deletions that had been made to the 1996 indicators.

We also reviewed                      procedures for carrying out its internal control assessment
required under the Federal Managers’ Financial Integrity Act (FMFIA) of 1982, OMB Circular
No. A-123, and           implementing guidance.
                                                                              Appendix     II
                                                                               Page 1 of 7




                     UNITED STATES OF AMERICA




               Lou               RX/A/Cairo
 FROM:         Gordon West,
               Audit of the                  of        Reported in
                                           Results
                                            in 1997, Draft
               XXX-P
DATE :                       28, 1998


The            mission in Bangladesh                           opportunity
             on the       draft audit report.


We note that ths                    audit      timely and           and
highlights       key             in which                         improve
standards              practices with               to           reporting.
                                                         had
improved                of                      cited in
                audit,Many of the              comments on
                                                        specific
hnve already guided the Mission

With                         definitions
                              of the criteria formulated by
Office of                 General        for this-audit,      we
find unrealistic. For            in the developing country
setting                     it     next to              and would be
prohibitively expensive, to achieve a uniform         of
        I percent.           l     data collection and
systems do not exist here.   The Bangladesh               and
        (DHS), the best     most              source we have fox
broad impact measurement,        allow for an              of
percent.

We              creating standard criteria which would apply
              may not      into        the linkage        the cost
and             of data collection. It may not make       for the
U.S.                to invest the     amount of effort and funding
to track a       grants democracy program as for, say, our $30
million                   program.
                                                                                                  Appendix II
                                                                                                   Page 2 of 7




We                            must be an element of judgment.                      the
            validity            data                     the          to                or
                    data.     We are             operating in a perfect
Many                  have                        World                     with
data                     da not.                         undertake                 in
and                                     from
             preclude            from working in                               and
              with                                 for
                 fully prepared                                   with
recommendations of the audit bared                         the
                                 The
reporting               by the         in the    audit differ in
                                       and criteria           in currant                               .
                                                an       that      Agency
a                   review and                       before we accept the
                       under                or                      of
            yet                                                          the                      of
good reporting attributes and
reviewing the quality of                                           and             au
            guide      we c o n t i n u e                   our
and                     in a




Page 3 of the draft a u d i t                                           The r e p o r t
               the             would not                             accurate
                                    that                    t                                to
January        1996.           audit         not
                             the first quarter                      that
                         R4         wab                             of                            .
for FY 1996, based             guidance                     by the        in
       Agency                       the                          the
reporting period for                                the FY97 RI,     bare
r e p o r t i n g period
Page S, paragraph             second   The report     that
                           believed                   for
ambiguity in                  objectivity criterion                            l


      the Mission  arguing for ambiguity, but rather pointing
out that more complex                     required in
            We       that       quotation be
               .                                                                                       Appendix II
                   .                                                                                    Page 3 of 7




                                                   3

        For                      they said that they were aware of
                               that indfca             be
                         they noted that               the
                               social                      t                                 that
                                    a particular                                             is
                                    and what kind of data                         be

Page     paragraph 3,                                              The audit
                                                                      the
appropriate                                                         by
                                          affirmation                    the
              regarding                                              of indicatora.
that the                                                                 to reflect this
                                              that they b e l i e v e d that
                         by                       and                        in
                                      affirmed the                           judgment
                          the                              of
Page 5, paragraph                   fourth                                          The report
                                                                                  did                  it
                                                                                              regard
                              the
                                to do
attributed to                  not                    of
              At tho time the 1996        prepared in
practicer varied among SO teams               to obtaining
keeping                                     did nat find the
need    obtain          voluminous documentation
evidence that     reporting
             in their                                  request that the above
          be modified,
Page.    final                                     6, top of                           The report
              by               time the audit
                                    taken action, or                had
to correct                    of      cited                    l                         for
                       1998,                                             6   of
                                                   being                                 l


                                               l     ven                          chat
dropped in their 1998                                  more
like to clarify that the            cftad were          by the
on                      baaed on its continuing technical
               to this audit, and not as a            of       audit.
We suggest that the report include            clarification, at
   the first paragraph on page 6,
                                                                                           Appendix     II
                                                                                            Page 4 of 7




                                              taken by the                 on
                                         to
Page                       The report                  a             report wherein          a
                             to have
                                  documentation                           to
actual                        that the                                  the
             l     The                  not aware of            an              report.
                             an
                                                            in September        1995,
            that the                had made
                 intended.              performance audit noted            that
            in        contributed                 the overall                      the
            population program.



                                  That
                              in the          to be                  in
objective and         clearly defined    regarding what                        results
to be measured,

                                  That
                  data
                           complete, and                        or fully
in    the         data                    and                            fox
the             and                            of performance tar
performance indicator, and                       frame for                      the

                                                    fully                         idea that
the                                            improve the quality of
performance                       and                                     will
Agency guidance for                    and reporting on
indicators in future                   three             objective
(SO) teams                   a thorough review of
performance             in preparation for the R4 to
in         To the      of their ability, the
that the                  objective and           defined,
                  data
with Agency
We have                                 of our
conducted on our various                               to            a                of
                                  For
                 of                                             we
two' financial                that                          additional
                                         are now required       under the
their                                                  submit an annual monitoring
and evaluation                                 which          include
                                                                                          Appendix II
                                                                                           Page 5 of 7




       data collected at the                 level,             addition,          plan
          the                    of Work (SOW) for
                                                          for the                  to
                     reliability o performance data
   the            recipients, Finally,        begun including in
periodic                  a         whereby     activity
would                                               reported by
their                             added                                            in the
                reports,


       Population                                     formally
                            and 22                                          indicators.
For     FY 1998 R4 to                             in 1999, the             Team will
     reporting                                        verifiable                   in
there are accurate,                                        and                  data.
available       f o r thrt            The nationwide                              health
                     which                                                   will     be
conducted until                                           the                for        of
four                  16        indicators, which at+                 on
collection,                not                  on in the            1999
TO                    the information               the               program in
                and                                             on
                           in             the                will add five
                      in                          The nat
        which are accurate within         percentage
be the data                 of       five new                  The
                of       percent will be              in t h a
indicator              new            will be included in the
           data       in the       in which
conducted.                                   IR                              Team
report on         SO                 and on                        in'
be               in                    Team                 developed a validation
      for each indicator, which                            monitoring
field         to         drtr, and                         by the
demographer                      methodologies.
The         Security                 had already          made
in the                          of its
                 and                     indicators.             the     prepared         in
1998     the      Team                       three                  single
                                       food          for
                              the number        had
*seven      two, and the number of     indicators reduced from
16.   Of the                  that            the
and included    the audit sample, four had          been
by the Team prior                      dropped had all been
     at          problem in the, dtaft          report, and of
                                                                                        Appendix II
               .                                                                         Page 6 of 7




four remaining                                  was found acceptable.           The
                                                            reporting formats and
                                                  for the      prepared in
For the R4                   prepared in             the
         all-reporting entities                                         on
current set of                                        not later than December
                                                      year October I,      to
                     1998.
The 'Food                         is currently in                          of
                                 direction             area6 of
          of                           likely that
                                 with a           health                  will b e
ahifted            dropped, and others        be added.                           in
                       a              outcome of               in             program
and/ox                                      a                of the
                   batter              the             of          programs.

The                                                          initiated
                                                    the      to be prepared
the
                       the       to                   in               tho              has
                               of indicator                         the United
and from the region,                         thsm     developing
                                                     to be completed       by
of this c a l e n d a r
               be noted               the
                                             in
The                                   its           in
                            capture          objective6 of                             As a
result         often          on                    which                             and
                          and show               change.                  indicators
            do not                           the longer-tam
the program in contributing             to.U.8. goals and
                                             to
quantitative                    which                      reflect a particular
program objective being achieved,                           Team
qualitative data in the                 to                         in achieving
and/ax
                                                                                  Appendix     II
                                                                                   Page 7 of 7




           on the foregoing                       of                      and
reporting                the
developed           action to meet
                  plan                                and c r i t e r i a
for                             verifiable                   for
reporting         that     supported, accurate, complete and
validated.   The plan of               outlined above. The
       undertaken              thia plan                 in an
                          in the          of   1999   that     meet the
of the draft audit                                            Agency
regarding                      and          for program
measurement                                     further                and
agreement                      the        for       and           Coordination
       and OXG, we will
indicators             reporting in                           with
guidance.
                         the plan of           sat forth in          memorandum,
                                of       plan that                       in t h e
                                   in                  of
                                draft a u d i t                              We
      your concurrence   that    the a u d i t                   be r e s o l v e d
      report                    and promptly                                      review
of t h e
                                                                                                           Appendix III
                                                                                                             Page 1 of 4

                      Analysis of          Bangladesh’s 1996 Indicators and Results’
                                 (as reflected in its R4 prepared for 1997)



            Indicator                                                                 Explanation of problem, if any,
                                                                                           except for validated

 Vaccination coverage for           Yes       No                             No       Documentation provided did not
 urban children increased and                                                            support reported result.
 sustained.

 Sales of Oral Rehydration          Yes       Yes       Yes       Yes        No           No relevant, independent
 Salts (ORS) packets by the                                                           assessment/evaluation of the data
 Social Marketing Company.                                                           and/or the system for generating the
                                                                                             data was conducted.
 Use of            Rehydration      Yes       No                            No       Calculated result was not sufficient
 Therapy (ORT) to treat                                                               as it was based on undocumented
 children under three years of                                                       weighting factors applied to urban
 age increased.                                                                       and rural children. Further, these
                                                                                    factors were applied to data for 1994
                                                                                             and 1995, not 1996.

 Percent of children under                                                            Documentation provided was not
 three years who received a         Yes       No                            No        relevant-it provided results for
 Vitamin A capsule in last 6                                                            children age 12 to 59 months.
 months.

 Percent of aggregate costs of                                                      Documentation was not sufficient as
         funded                     Yes       No                            No       it did not adequately support the
 Governmental Organizations                                                              attested result calculation.
         covered by program
 generated revenues increased.

 Local government and                                                               Indicator is not objectively verifiable
 community contribution to the      No                                      No       because it is not unidimensional nor
 Family Planning Program                                                              are local government, community,
 increased.                                                                             and Family Planning Program
                                                                                                    defined.




   To avoid enumerating several problems related to a reported result (e.g., a reported result could be both not
supported and not accurate), we have reported only one problem per indicator according to the following hierarchy.
not             verifiable, not supported, not accurate, and not complete. We did, however, report results as not
validated                in addition to another problem because we believe that the requirementfor operating units to
assess the quality        sources was a distinctfunction andpotentially related to each of the type ofproblems included
in the hierarchy.
                                                                                          Appendix III
                                                                                            Page 2 of 4



                                                                     Explanation of problem, if any,
                                                                          except for validated


Percentage of Social                                                 Grantee-provided documentation
Marketing Company (SMC)           Yes                                  was not sufficient to support
operating costs covered by                                                   reported result.
program generated funds
increased.

Low levels of contraceptive                                           Methodology used to determine
          rates (BDG system       Yes       No                No      percentage of        rate not
only) at point of service                                                adequately documented.
delivery sustained.

Development of new, positive      No                          No       Specific criteria had not been
service delivery policies.                                          established to objectively measure
                                                                    progress, i.e., new, positive service
                                                                      delivery policies had not been
                                                                      defined-neither was with the
                                                                     potential to improve the national
                                                                                         (included in the
                                                                       indicator’s unit of measure).

Estimated beneficiaries (direct   No                          No       Specific criteria had not been
and indirect) from operations                                       established to objectively measure
research (OR).                                                      progress, i.e., beneficiary and OR
                                                                           had not been defined.

Yearly averages of stunting       Yes       No                No    Documentation was not sufficient
among children (6-59 months)                                               nor competent.
reduced.

Numbers of poor households                                             Specific criteria had not been
overall producing fish and        No                          No    established to objectively measure
vegetables increased.                                                progress, i.e., poor had not been
                                                                     defined. Also, indicator was not
                                        .                                     unidimensional.

Percent of public food
distribution system (PFDS)        Yes       Yes   Yes   Yes   Yes
food going to effectively
targeted

Real value-added in               No                          No       Specific criteria had not been
agriculture increased.                                              established to objectively measure
                                                                    progress, i.e., real value-added had
                                                                              not been defined.
                                                                                       Appendix III
                                                                                        Page 3 of 4



          Indicator                                   3           Explanation of problem, if any,
                                                                       except for validated

Number of agribusiness            N     o                 No        Specific criteria had
investments increased.                                           established to objectively-measure
                                                                 progress, i.e., it is unclear what is
                                                                meant by investments and whether it
                                                                 is investments           productivity
                                                                           being measured.
13,040 kilometers of                                                      Prior audit report
environmentally sound market      Yes            No       No    (No. 5-388-97-002-P dated
roads added to rural road                                         found that the grantee’s reporting
network by 1999.                                                      system was not adequate.
Number of small rural                                     No    Documentation was not sufficient as
businesses using electricity                                    it could not be determined that result
increased.                                                      reported is for small businesses only.
Per capita Gross Domestic         Yes        No           No    No relevant documentation provided
Product (GDP) growth                                                 to support reported result.
increased.

Percentage of population with                                             Prior audit report
      to disaster relief          Yes       No            No    (No. 5-388-97-002-P dated 5-30-97)
        (e.g., ORS) within 72                                   found that supporting documentation
     increased.                                                       was not adequate. Also,
                                                                documentation does not specify that
                                                                access to supplies is within 72 hours.
        of          project       Yes       No            No    Documentation was not sufficient as
oans increased.                                                 results were not documented by one
                                                                         of the two grantees.
        of women elected to                                      Reported result not supported as it
             and chairperson      Yes       No            No    was taken telephonically by Mission
     on local elected bodies.                                     without record of conversation.
         of associations                                            Specific criteria had not been
advocating customer interests     No                      No     established to objectively measure
n target communities          I                                 progress, i.e., association, customer
                                                                  interests, target community, and
                                                                     advocating are not defined.
           confidence in                                             Specific criteria had not been
       of associations to         No                      Yes     established to objectively measure
         their interests in                                      progress, i.e., customer confidence,
arget communities increased.                                    associations, advocate, and interests
                                                                            are not defined.
                                                                                                    Appendix III
                                                                                                      Page 4 of 4



          Indicator                                                           Explanation of problem, if any,
                                                                                   except for validated

Percentage of adults reached      No                                  No         Specific criteria had not been
by effective voter awareness                                                  established to objectively measure
programs increased.                                                              progress, i.e., effective voter
                                                                              awareness programs had not been
                                                                                defined. Also, elements of the
                                                                                  percentage calculation are
                                                                                          ambiguous.

Number of women alternative                                                  Reported result was not supported
dispute resolution clients in    Yes                                 No      with sufficient documentation as it
target communities increased.                                                did not agree with recorded results
                                                                             which were taken telephonically by
                                                                                Mission (and without record
                                                                                 otherwise of conversation).

Number of adults reached by                                                      Specific criteria had not been
effective legal awareness        No                                  No       established to objectively measure
programs increased.                                                              progress, i.e.,          legal
                                                                              awareness programs had not been
                                                                                            defined.

Number of local elites and                                                       Specific criteria had not been’
opinion leaders reached by       No                                  No       established to objectively measure
legal awareness programs in                                                   progress, i.e., local elites, opinion
target communities increased.                                                     leaders, reached, and legal
                                                                              awareness programs had not been
                                                                                             defined.

Number of marriages              Yes      No                         No       Reported result was not supported
registered in target                                                         with sufficient documentation as it
communities increased.                                                       was taken telephonically by Mission
                                                                               without record of conversation.

Number of shalish in target                                                      Specific criteria had not been
communities using improved       No                                  No       established to objectively measure
Alternative Dispute                                                          progress, i.e., improved had not been
Resolution (ADR) techniques                                                                   defined.
increased.

Bangladesh Independent                                                           Specific criteria had not been
Garment Workers Union            No                                  No       established to objectively measure
(BIGU) members’ sense of                                                     progress, i.e., sense of empowerment
empowerment vis-a-vis                                                                   was ambiguous.
employers increased.

                                Yes:17   Yes: 2   Yes: 2   Yes: 2   Yes: 2
           Totals               No: 13   No: 15   No: 0    No: 0    No: 28
                                                                                  Appendix IV
                                                                                   Page 1 of 3


                   Federal Laws and Regulations, and       Guidance
                      Relevant to Measuring Program Performance


There are numerous federal laws and regulations requiring      (and other federal agencies)
to develop and implement internal management controls to measure and report on program
performance. Discussed below are examples of those requirements as well as         policies
and procedures.

Laws and Regulations

Chief Financial Officers Act of 1990 requires management internal controls which provides for
(1) complete, reliable, consistent, and timely information which is prepared on a uniform basis
and which is responsive to the financial information needs of agency management; and (2) the
systemic measurement of performance.

Standards for Internal Controls in the Federal Government issued by the U.S. General Accounting
Office in 1983 require systems of internal controls that ensure that all transactions and other
significant events are clearly documented, and that the documentation is readily available for
examination.

OMB Circular No. A-123 (dated June 21,            which is the executive branch’s implementing
policies for compliance with the Federal Managers’ Financial Integrity Act of 1982, requires
agencies to have management internal controls to ensure that (1) programs achieve their intended
results; and (2) reliable and timely information is obtained, maintained, reported, and used for
decision making.

OMB Bulletin        (dated January 8, 1993) requires agencies to have internal control systems
to provide reasonable assurance that support for reported performance results are properly
recorded and accounted for to permit preparation of reliable and complete performance
information.

The Foreign Assistant Act (Section 62 1 A), as amended in 1968, requires        to develop and
implement management systems that provide for comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to the          and to Congress that relates          resources, expenditures, and
budget projections to program objectives and results in order to assist in the evaluation of
program performance.
                                                                                    Appendix IV
                                                                                     Page 2 of 3

         Policies and Procedures

The most recent            system, known as the Automated Directives System for Managing for
Results (ADS 200 Series), for measuring and reporting on program performance was initiated in
October 1995. This new system requires (Section 203.5. la) that operating units establish
performance monitoring systems to regularly collect and analyze data which will enable them to
track performance and objectively report on the progress in achieving strategic objectives and
intermediate results. The system also requires (Sections                        E203.5.5, and
203        operating units to:

        establish objective performance indicators (with related baseline data and targets) to
        measure progress in achieving program objectives;

        critically assess the performance data at regular intervals to ensure that reported
        performance data are of reasonable quality and accurately reflect performance;. and

    l   prepare an annual Results Review and Resource Request (R4) report which must include
        performance information on progress in achieving its program objectives for the
        immediate past fiscal year.

TIPS No. 6, “Selecting Performance Indicators,” which is supplemental guidance to the ADS,
defines objective as:

   An objective indicator has no ambiguity about what is being measured. That is, there is
   general agreement over interpretation of the results. It is both unidimensional and
   operationally precise. To be unidimensional means that it measures only one phenomenon
   at a time.... Operational precision means no ambiguity over what kind of data would be
   collected for an indicator. For example, while number of successful export                is
   ambiguous, something like number of export               experiencing an annual increase in
   revenues of at least 5 percent is operationally precise.

TIPS No. 7, “Preparing a Performance Monitoring Plan,” which is also supplemental guidance
to the ADS, stipulates that each performance indicator needs a detailed definition. The definition
should be detailed enough to ensure that different people at different times, given the task of
collecting data for a given indicator, would collect identical types of data. The definition should
be precise about all technical elements of the indicator statement. For example, the TIPS states:

   “As an illustration, consider the indicator number of small enterprises receiving
   the private banking system. How are small enterprises defined -- all enterprises with 20 or
                                                                                      Appendix IV
                                                                                       Page 3 of 3

    fewer employees, or 50 or         What types of institutions are considered part of the private
    banking sector -- credit unions, government-private sector joint-venture financial institutions?”

ADS Section E203.5.5 also requires operating units to (1) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and methods;
    collect results data for each performance indicator on a regular basis; (3) reassess data quality
as is necessary but at intervals of no greater than three years. These policies and procedures also
state that if data for a performance indicator prove to be unavailable or too costly to collect, the
indicator may need to be changed.

In addition, ADS section           states that the       will conduct a review of performance
on an annual basis which will include analyzing operating units performance and “shall focus on
the immediate past fiscal year”, but may also review performance for prior years.

         guidance issued in January 1997 for preparing the              stated that the goal of the
guidance was to generate          which ensure that USAID/Washington management has the
information they need to make results-based resource allocations among operating units and
report on           achievements. The guidance also stated that the most effective        are those
that (1) assess performance over the life of the objectives, with an emphasis on the past year,
using established indicators, baseline data, and targets; and (2) state explicitly whether and how
much progress or results surpassed, met or fell short of expectations. The guidance stated that
the results should cover actual performance through fiscal year 1996.
Major Contributors to this Report




Regional Inspector General
for Audit. Cairo,
                                      Bruce Boyer, Audit Manager
                                    Ken Reager, Auditor-in-Charge
                                      Mary Eileen Devitt, Auditor
                                        Mike Clinebell,
